               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




       Readiness for Package Growth –
            Processing Capacity

                       Audit Report




                                              January 21, 2014

Report Number NO-AR-14-002
                                                                      January 21, 2014

                                                   Readiness for Package Growth –
                                                              Processing Capacity

                                                       Report Number NO-AR-14-002



BACKGROUND:
Strong consumer demand for goods            was to assess the Postal Service's
purchased over the Internet has driven      package processing capacity to meet
growth in package volume in an              anticipated volume increases.
otherwise declining mail market. In
calendar year 2010 total online sales       WHAT THE OIG FOUND:
increased 12.6 percent from the prior       The Postal Service has sufficient
year. Online retail sales in the U.S. are   machine capacity to process all non-
expected to grow to $278.9 billion by       peak period package volume. It can
2015. This growing package segment          process an average of about 29 million
provides the U.S. Postal Service an         packages daily, which is more than
opportunity to help counter the reduction   sufficient to process the 24 million
in First-Class Mail® volume and the         packages it receives. During the
flattening of Standard Mail® volume. In     December peak period, the Postal
its 2012 Five-Year Business Plan, the       Service augments its machine capacity
Postal Service projects that volume,        with manual processing. The Postal
which was 3.5 billion packages in fiscal    Service does this to avoid having
year 2012, will grow by 5 to 6 percent      excess machine capacity and its
per year through 2017.                      associated costs for the other
                                            11 months of the year. But, to meet
The Postal Service, through its             anticipated package growth, the Postal
Delivering Results, Innovation, Value,      Service could improve machine
and Efficiency initiative, is working to    throughput by properly staffing
establish a package processing and          machines and adjusting the mail arrival
delivery network that supports this         schedule.
package growth. Customer expectations
for packages are rising through demand      WHAT THE OIG RECOMMENDED:
for free shipping and increased tracking    We recommended the vice president,
and visibility capabilities.                Network Operations, ensure package
                                            processing equipment is adequately
This report is one of a series of U.S.      staffed, standardize package processing
Postal Service Office of Inspector          operations where feasible, and adjust
General products that addresses the         mail arrival schedules as necessary.
Postal Service’s readiness for growth in
the package business. Our objective         Link to review the entire report
January 21, 2014

MEMORANDUM FOR:           DAVID E. WILLIAMS, JR.
                          VICE PRESIDENT, NETWORK OPERATIONS


                               E-Signed by Robert Batta
                             VERIFY authenticity with e-Sign




FROM:                     Robert J. Batta
                          Deputy Assistant Inspector General
                           for Mission Operations

SUBJECT:                  Audit Report – Readiness for Package Growth – Processing
                          Capacity (Report Number NO-AR-14-002)

This report presents the results of our audit of Readiness for Package Growth –
Processing Capacity (Project Number 13XG036NO000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director,
Network Processing and Transportation, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Readiness for Package Growth – Processing Capacity                                                                 NO-AR-14-002




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Existing Processing Capacity .......................................................................................... 2

Maximize Capacity .......................................................................................................... 3

   Machine Throughput .................................................................................................... 3

   Machine Run Time ...................................................................................................... 5

Recommendations .......................................................................................................... 7

Management’s Comments .............................................................................................. 7

Evaluation of Management’s Comments ......................................................................... 7

Appendix A: Additional Information ................................................................................. 8

   Background ................................................................................................................. 8

   Objective, Scope, and Methodology ............................................................................ 9

   Prior Audit Coverage ................................................................................................. 10

Appendix B: Package Processing Machine Descriptions and Restrictions.................... 12

Appendix C: Management's Comments ........................................................................ 15
Readiness for Package Growth – Processing Capacity                                                NO-AR-14-002




Introduction

This report presents the results of our self-initiated audit of Readiness for Package
Growth – Package Capacity (Project Number 13XG036NO000). This report is one of a
series of U.S. Postal Service Office of Inspector General (OIG) products that addresses
the U.S. Postal Service’s readiness for growth in the package business. Our objective
was to assess the Postal Service's package processing capacity to meet anticipated
volume increases. See Appendix A for additional information about this audit.

Conclusion

The Postal Service has sufficient machine capacity to process all non-peak period
package volume. 1 It has the machine capacity to process about 29 million packages
daily, which is more than sufficient to process the 24 million packages it receives daily.
However, to meet anticipated package growth, the Postal Service must improve
machine throughput and increase run times.

Strong consumer demand for goods purchased over the Internet has driven growth in
package volume. From fiscal years (FYs) 2010 through 2012, Postal Service package
volume increased by 445 million pieces, or 14.6 percent. This rate of growth is greater
than Federal Express (FedEx) or United Parcel Service (UPS) of America, Inc. which
experienced volume growth of 10.5 and 4.5 percent, respectively, during reporting
years 2010 through 2012. 2 Similarly, Postal Service package revenue increased by
$1.44 billion, or 14.2 percent, during this same period. 3 In its 2012 Five-Year Business
Plan, the Postal Service projects volume, which was 3.5 billion packages in FY 2012,
will grow by 5 to 6 percent per year through 2017.




1
  During the December peak period, the Postal Service augments its machine capacity with manual processing. The
Postal Service does this to avoid having excess machine capacity for the other 11 months of the year.
2
  The Postal Service's reporting year ends September 30, FedEx's reporting year ends May 31, and UPS's reporting
year ends December 31.
3
  According to the Postal Service's FY 2012 Annual Report, total shipping and package services (package volume)
increased from $10.156 billion in FY 2010 to $11.596 billion, or 14.2 percent, in FY 2012; and increased from
3.057 billion pieces in FY 2010 to 3.502 billion pieces, or 14.6 percent, in FY 2012.
                                                             1
Readiness for Package Growth – Processing Capacity                                                      NO-AR-14-002




Existing Processing Capacity

Our analysis shows the Postal Service has sufficient capacity to accommodate current
package volume on its existing automated equipment. 4

We analyzed package processing from April 2012 through March 2013 and determined
there was about 17 percent excess capacity5 available to process increased package
volume 6 (see Figure 1). The 17 percent excess equates to about 1.5 billion packages.

                     Figure 1. Machineable Package Processing Capacity
                           and Volume — April 2012 to March 2013
                                         (in billions)

                10.8


                  9.0


                  7.2


                  5.4


                  3.6


                  1.8



                        Total Capacity - April 2012 through March 2013
           Source: Management Operating Data System (MODS).

A month-to-month analysis found sufficient capacity on existing machinery to process all
package volume every month except December. The Postal Service supplements with
manual processing to accommodate the additional package volume it receives in
December (see Figure 2).




4
  We used the following automated package processing equipment in our capacity calculations: Automated Package
Processing System (APPS), Automated Parcel and Bundle Sorter (APBS), Small Parcel and Bundle Sorter (SPBS),
High-Speed Induction Unit (HSIU), and Singulated Scan Induction Unit (SSIU).
5
  Excess capacity is calculated by dividing the machines and manual operations used during the review period by
total capacity. Excess capacity is 7.568 billion divided by 9.081 billion, or 17 percent.
6
  Our analysis does not take into account current mail arrival profiles or standard operating windows for processing to
ensure service standards are met.

                                                           2
Readiness for Package Growth – Processing Capacity                                                                         NO-AR-14-002




                          Figure 2. Machineable Package Processing
                     Capacity and Volume — April 2012 Through March 2013
                                         (in millions)

    900
                                                                                               109%
                     756.8
    750
                                                                               86%                          90%              89%
                                                                     81%                 86%                       78%
                                                          81%
    600        77%           77%

                                     73%        73%
                                                                                                72%
    450                                                                               63%                65%
                                                                 60%        63%                                             66%
                                                       59%                                                         57%
           57%        56%
                                   53%      53%                                                 38%
    300
                                                       22%                  23%       23%                24%                 23%
           20%        21%          20%      20%                  21%                                               21%
    150



          April 12   May 12    June 12     July 12    Aug 12    Sept 12    Oct 12    Nov 12    Dec 12   Jan 13    Feb 13    Mar 13

               Manual Operations               Machines            Machines and Manual Operations                Total Capacity
    Source: MODS.

Excess capacity exists because the Postal Service has more machine capacity than
package volume (see Appendix B).

Maximize Capacity

To meet anticipated volume increases, the Postal Service must maximize its package
processing capacity through improved machine throughput and increased machine run
times.

Machine Throughput

The Postal Service can maximize capacity by increasing machine throughput. From
April 2012 through March 2013, the Postal Service did not achieve established
throughput goals on package processing equipment. Actual machine throughput was
from 7 to 37 percent less than planned on all types of mail processing equipment (MPE)
(see Table 1).




                                                                     3
Readiness for Package Growth – Processing Capacity                                              NO-AR-14-002




     Table 1. Processing Machines Throughput — April 2012 Through March 2013

       Processing             Number of            Actual     Throughput
        Machine               Machines           Throughput     Goals                       Difference
    APBS 7                          210                 3,677      4,050                              -9%
    APPS – Single                    17                 4,597      4,950                              -7%
    APPS – Dual                      57                 7,651      8,703                             -12%
    HSIU and SSIU                    65                 2,851      4,500                             -37%
Source: Mail and Image Reporting System (MIRS) and the Postal Service.

Opportunities for improving machine throughput include:

    Ensuring MPE is adequately staffed. At six of the seven facilities we visited that had
     at least one APPS machine, there were an insufficient number of cullers or loaders
     on the APPS machines for optimal operation. As a result, machine throughput
     suffered because the machine jammed or packages rotated around the machine
     multiple times before being sorted.

    Standardizing package processing across the network. We observed that processing
     plants differed in terms of equipment, floor layout, and dock locations at the locations
     we visited. Some processing and distribution centers (P&DCs) have APPS machines
     while others do not (see Table 2). Many smaller facilities do not have automated
     package processing equipment and rely solely on manual processing. Standardizing
     package processing operations, where possible, can improve machine throughput,
     increase capacity, and accommodate additional volume.




7
  The APBS is an expansion of the SPBS with two overhead cameras and a barcode and/or optical character
recognition.

                                                       4
Readiness for Package Growth – Processing Capacity                                          NO-AR-14-002




       Table 2. Package Processing Equipment and Workload at Sites Visited
                     from April 1, 2012 Through March 30, 2013


                                                                              Number
                                                  Number                         of
                      Number                      of SPBS/      SPBS/          HSIUs      HSIU and
                     of APPS        APPS           APBS         APBS            and         SSIU
        Plant        Machines      Workload       Machines     Workload        SSIUs      Workload
    Los Angeles
      Network
     Distribution
   Center (NDC)                -              -           2    16,503,696           4      71,969,774
    Los Angeles
       P&DC                   2    48,930,642             1    19,861,389           -                    -
    Los Angeles
    International
   Service Center
        (ISC)                  -              -           3    42,141,977           1       7,723,857
    Denver NDC                1    23,536,867              -              -         3      47,769,253
   Denver P&DC                 -              -            -              -         -                    -
    Denver Mail
    Processing
       Annex                  1    27,197,144              -              -         -                    -
   Chicago Metro
    Surface Hub               3    77,329,724             1     7,605,029           -                    -
   Chicago NDC                1    30,126,126             1    23,737,669           2      23,066,449
  South Suburban
      P&DC                     -              -            -              -         -                    -
    Chicago ISC               1    13,984,403             3    24,433,836           -                    -
    North Texas
       P&DC                   1    31,430,545             2    20,759,121           -                    -
 Source: Machine Numbers per Web End-of-Run period March 31, 2012 through March 29, 2013, and Business
 Process Improvement Report Workload from the Variance Programs Toolbox.

Machine Run Time

Package processing capacity could also be improved by increasing run time on both the
APPS and APBS machines. Between April 2012 and March 2013, these machines'
average run times were between 11 and 14 hours per day versus a run time goal of
17 hours per day (see Table 3).




                                                    5
Readiness for Package Growth – Processing Capacity                                            NO-AR-14-002



    Table 3. Processing Machine Run Times — April 2012 Through March 2013

                                             Actual Daily                                 Differences
                                              Run Time           Planned Daily           From Planned
  Processing             Number of             Hours               Run Time                Daily Run
    Machine              Machines             Average            Hours Average                Time
 APBS                           210                  11.28                   17                   -34%
 APPS – Single                   17                  14.29                   17                   -16%
 APPS – Dual                     57                  14.26                   17                   -16%
 HSIU and SSIU                   65                  17.93                   17                     5%
Source: MIRS and Postal Service.

Ensuring mail is available at the start of the scheduled machine operating window can
improve machine run times. At one facility, an APPS operation was scheduled to start at
6 p.m., but mail did not arrive until 7:30 p.m., delaying the start of the operation. Late
arriving mail shortens run times and can cause bottlenecks and mail delays at critical
times during the operating window (see Figure 3).

                                   Figure 3. Priority Mail Bottleneck




         Source: OIG photograph taken at the Denver Mail Processing Annex on June 25, 2013.

Increasing machine run times will maximize existing capacity, provide an opportunity to
move some manually processed mail to the machines, and address anticipated growth
in package volumes.




                                                    6
Readiness for Package Growth – Processing Capacity                              NO-AR-14-002




The Postal Service can make the most of the opportunities projected package volume
growth presents by optimizing its processing capabilities. It also has a legal obligation to
do so. Under 39, U.S.C., Part III, Chapter 20:

       The Postal Service shall promote modern and efficient operations and
       should not expend any funds, engaging in any practice, or entering into
       any agreement or contract, other than an agreement or contract under
       Chapter 12 of this title, which restricts using new equipment or devices
       which may reduce the cost or improve the quality of postal services,
       except where such restriction is necessary to ensure safe and healthful
       employment conditions.

Recommendations

We recommend the vice president, Network Operations:

1. Ensure package processing equipment is adequately staffed.

2. Standardize package processing operations where feasible.

3. Adjust mail arrival schedules where possible to increase the amount of mail
   available at the beginning of machine runs.

Management’s Comments

Management agreed with all the recommendations in the report. In response to
recommendation 1, management is working to ensure an adequate complement is in
place by June 2014 to maximize equipment. Regarding recommendation 2, equipment
will be deployed and operations standardized where space and market demands permit
with a target date of March 2014. For recommendation 3, plant schedules will be
adjusted to ensure mail arrival coincides with the beginning of machine runs by June
2014. See Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations in the
report.




                                                 7
Readiness for Package Growth – Processing Capacity                                              NO-AR-14-002



                               Appendix A: Additional Information

Background

Total online sales increased 12.6 percent in calendar year 2010 from the prior year — to
$176.2 billion — and online retail sales in the U.S. are expected to grow to
$278.9 billion by 2015. The growing package segment provides the Postal Service an
opportunity to counter the reduction in First-Class Mail® volume and the flattening of
Standard Mail® volume.

Through the Delivering Results, Innovation, Value, and Efficiency (DRIVE) 8 initiative,
the Postal Service’s goal is to establish a package processing and delivery network that
supports package growth and delivery expectations. Customer expectations for the
package business are rising through demands for free shipping and increased tracking
and visibility capabilities. Current Postal Service initiatives to increase package
business include Package Intercept 9 and Day Certain Delivery. 10

Postal Service package services are broken into the following categories:

    Express Mail        The fastest service, with a money back guarantee and overnight
                        delivery to most U.S. addresses.
    Priority Mail      An expedited service for shipping any mailable matter, subject to
    Express            certain standards, such as size and weight limits.
    First-Class        The First-Class Mail marking that is used on the face of a package to
    Packages           indicate the service level to be provided and, when combined with
                       other price-specific markings, to show the product or price category
                       claimed.
    Parcel Select      An economical ground delivery service used by large private industry
    Mail               shippers that rely on the reach of the Postal Service because it
                       delivers to every home and business in the nation.
    Parcel Return      A dedicated return service for businesses that generate 500,000 or
    Service Mail       more returns a year. Parcel Return Service is a workshare program
                       to pass on savings to high volume shippers.
    Package            Primarily used for shipping merchandise and includes Postal Service
    Services           Tracking and/or Delivery Confirmation at no additional charge.
                       Package Services do not include free forwarding and return, but
                       mailers can use ancillary service endorsements to tell the Postal
                       Service how to treat undeliverable mail.

The Postal Service uses manual and automated methods to process its packages within
mail processing facilities. The Postal Service's mail processing facilities use APPS,
APBS, and HSIUs and/or SSIUs to process most packages.

8
  DRIVE is a management process used to improve business strategy development and execution. The goal of
DRIVE Initiative 43 is to "Build a World-Class Package Platform."
9
  Package Intercept enables customers to redirect a shipment before final delivery.
10
   Day Certain Delivery allows customers to have their packages delivered on a specific day.

                                                      8
Readiness for Package Growth – Processing Capacity                          NO-AR-14-002




Objective, Scope, and Methodology

Our objective was to assess the Postal Service's package processing capacity to meet
anticipated volume increases.

To meet our objective, we analyzed package volume, workhours, and productivity from
April 2012 through March 2013. We used total pieces handled (TPH) and non-add TPH
volumes in our analysis. We also reviewed policies and procedures regarding package
processing and visited 11 mail processing facilities, where we observed and interviewed
plant managers.

We relied on computer-processed data maintained by Postal Service operational
systems, which include MODS, MIRS, and the Enterprise Data Warehouse. We did not
test the validity of controls over these systems. However, we assessed the reliability
and verified the accuracy of the data by confirming our results with Postal Service
managers and other data sources. We also relied on prior OIG reviews of Postal
Service systems. We determined that the data were sufficiently reliable for the purposes
of this report.

We conducted this performance audit from May 2013 through January 2014 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on November 18, 2013, and included
their comments where appropriate.




                                                 9
Readiness for Package Growth – Processing Capacity                             NO-AR-14-002



Prior Audit Coverage
                                                                             Monetary
                                                         Final Report         Impact
           Report Title              Report Number           Date          (in millions)
  Readiness for Package              DR-MA-14-001        12/11/2013             $0
  Growth - Delivery Operations
  Report Results: The Postal Service’s Delivery Operations organization has
  successfully managed package growth from a mail volume and workhour
  standpoint. However, opportunities exist to improve readiness by implementing
  dynamic routing and modifying package compartments on cluster box units.
  Improving the retention of city carrier assistants, using parcel data, and establishing
  a vehicle shelving system will further bolster package readiness. Meeting these
  challenges will help the Postal Service manage growth and improve its
  competitiveness in the package business to better meet customers' needs.
  Management agreed with the findings and recommendations. Management noted
  that these issues were discussed during meetings with the OIG and corrective
  actions are being developed by the program offices.


  Click-N-Ship for Business         DP-AR-13-005        4/29/2013            $7
  Report Results: The Postal Service did not implement sufficient controls to protect
  revenue associated with the Click-N-Ship for Business application. Specifically,
  business customers can print Click-N-Ship for Business mailing labels



                                           Management agreed with the intent of the
  recommendation and will work toward addressing the issues raised in this report, as
  well as those expressed by its customers.




                                                 10
Readiness for Package Growth – Processing Capacity                             NO-AR-14-002




            Report Title                Report Number    Final Report         Monetary
                                                             Date              impact
                                                                            (in millions)
  Package Delivery Growth               MS-AR-12-003         5/4/2012      $467 revenue
                                                                           increase
  Report Results: The Postal Service’s strategies for growing its package business
  have helped it keep pace with competitors in growing domestic and international
  package markets. Although the strategies are sound, their effectiveness has been
  impacted by lack of a strategic decision-making process for evaluating new sales
  opportunities, sales tracking system shortcomings, and chronic sales staff
  vacancies. The Postal Service can grow its package business by stabilizing sales
  staffing levels and adding new products. We estimate it could increase revenue by
  $217 million in FY 2012 and by $340 million in FY 2013. This would be in addition
  to the $90 million in added revenue it did not capture in FY 2011 because of Sales
  staffing shortages. We estimate the Postal Service could realize
                                                                          in its key
  lightweight segment. We recommended the Postal Service establish a strategic
  decision-making process for evaluating new sales opportunities, enhance the
  Customer First! System, reassess sales staffing levels, continue to pursue
  legislative change that will allow it to ship beer and wine, and evaluate offering
  prepayment of customs duties and taxes and a local delivery product. Management
  agreed with our findings and recommendations and set forth its plans for corrective
  actions. Management disagreed with the monetary impact in a subsequent
  correspondence stating that, even with a reduced sales force, it has been able to
  increase sales by focusing on higher value sales and sales execution.




                                                 11
Readiness for Package Growth – Processing Capacity                            NO-AR-14-002



      Appendix B: Package Processing Machine Descriptions and Restrictions

The Postal Service processed about 3.5 billion packages in FY 2012, including package
shipments for the military. A machineable package is any piece that is not a letter or a
flat and has specific characteristics as discussed below:

     Minimum and maximum machineable package dimensions can vary based on the
      processing machine as shown below (see Figure 4).

                       Figure 4. Machineable Package Dimensions




           Source: Domestic Mail Manual (DMM).


     A description of size and weight constraints for the processing machines we
      reviewed (see Table 4).

        Table 4. Package Processing Machine Descriptions and Constraints

                                                                       Package Size
Machine                                                                 and Weight
 Type                       Machine Description                         Constraints
 APPS          Designed to automatically sort packages           Can handle pieces up
                and small packages and rolls to a 3-digit or      to a maximum of 22
                5-digit ZIP Code. Flat bundles can be sorted to   inches long, 15 inches
                a 3-digit, 5-digit, or carrier route ZIP Code.    high, 18 inches wide,
                                                                  and 25 pounds.
               Ranges in size from 12,062 square feet (SF) to
                32,101 SF.
    APBS       Designed to extend the operating life of          Can handle pieces up
                existing SPBS systems and enhance those           to a maximum of 15
                machines with improved operational                inches long, 12 inches
                capabilities.                                     wide, 12 inches high,
                                                                  and 20 pounds.




                                                 12
 Readiness for Package Growth – Processing Capacity                                           NO-AR-14-002




                                                                                      Package Size
 Machine                                                                               and Weight
  Type                        Machine Description                                      Constraints
  SPBS           Designed to efficiently sort small packages and                  Can handle pieces
                  bundles by mechanizing their sortation.                          up to a maximum of
                                                                                   15 inches long, 12
                                                                                   inches wide, 12
                                                                                   inches high, and 20
                                                                                   pounds.
    HSIU         The singulator takes a bulk stream of packages                   Can handle pieces
    and           and separates it into single pieces that are                     up to a maximum of
    SSIU          delivered to the data collection system for                      27 inches long, 17
                  identification. The package travels to a shoe sorter             inches high, 17
                  where it is diverted to one of several induction                 inches wide, and
                  lanes. Most packages are diverted onto HSIUs,                    25 pounds.
                  which deliver the mail to a sorter for final
                  disposition.

                 SSIUs separate packages and package mail into a
                  stream of single pieces, read barcode information,
                  and induct single pieces into a facility’s existing
                  sorting system for finalization.
Source: APPS and APBS Process and Work Methods Guide, SPBS Sort Program Editor User's Guide, U. S. Postal
Service San Antonio Alamo American Postal Workers Union, and DMM.


     Packages weigh over 25 pounds, except Parcel Select and Parcel Return
      packages, which have a maximum weight of 35 pounds.

     Numerous packages shipped by the Postal Service do not fall within these sizes or
      weight constraints, and must be manually processed. Other limitations on
      processing machines also require certain packages to be manually processed. The
      Postal Service categorizes these items as irregular or outside packages (see
      Table 5).




                                                     13
Readiness for Package Growth – Processing Capacity                                    NO-AR-14-002




                 Table 5. Examples of Irregular and Outside Packages

Package Type                                          Examples
Irregulars do not meet the dimensional                Rolls and tubes up to 26 inches long.
criteria of a machineable package.                    Merchandise samples that are not
                                                      individually addressed and are not
                                                      letter-size or flat-size.
                                                      Unwrapped, paper-wrapped, or
                                                      sleeve-wrapped articles that are not
                                                      letter-size or flat-size.
                                                      Articles enclosed in envelopes that are not
                                                      letter-size, flat-size, or machineable.
Outside exceeds any of the maximum                    High-density packages (other than books
dimensions for a machineable package.                 and printed matter) weighing more than
                                                      15 pounds and exerting more than
                                                      60 pounds per square foot of pressure on
                                                      the smallest side.
                                                      Cartons containing more than 24 ounces
                                                      of liquid in one or more glass containers.
                                                      Cans, paints, rolls, and tubes longer than
                                                      26 inches.
                                                      Metal-band strapped boxes, metal boxes,
                                                      and wood boxes.
                                                      Articles not mailed in boxes or other
                                                      containers.
                                                      Hazardous materials.
Source: DMM.




                                                 14
Readiness for Package Growth – Processing Capacity            NO-AR-14-002



                          Appendix C: Management's Comments




                                                 15
Readiness for Package Growth – Processing Capacity    NO-AR-14-002




                                                 16
